CREDIT CARD LINE OF CREDIT AGREEMENT AND DISCLOSURE STATEMENT
The purpose of this Agreement is to establish the terms and conditions of a Credit Card Line of
Credit with BrightStar Credit Union. Educator’s Rewards Visa Platinum program is only
available for employees and retirees of any school, college or university. You agree that by
using your credit card or by authorizing anyone else to use it, you agree to this Agreement and
will be responsible for repayment of all credit extended by us to your or to your authorized user.
1 (a) “Account” means your Educator’s Rewards Visa Platinum revolving credit account with
BrightStar Credit Union.
(b) “Card” means Educator’s Rewards Visa Platinum credit card and duplicates of said card
issued by BrightStar Credit Union,
(c) “Cardholder”, “I” or “you” mean each person who applies for the Educator’s Rewards
Visa Platinum credit card who signs this Agreement or the application therefore thereby
agreeing to the terms in this Agreement OR who is authorized to use and uses the credit
card or duplicate credit card.
(d) “Issuer” means BrightStar Credit Union.
2. You promise to pay for all amounts charged to your Account by you or any authorized user
in accordance with the terms of the agreement. You also agree to pay all finance charges, late
charges, returned check charges, collection costs, and all other sums which become due under
this agreement.
3. Approval by the Issuer will establish the following:
(1) The credit limit approved shall be determined by the Issuer, and this credit limit will be
drawn upon as I utilize an issued Card or approved access device such as letter check,
cash advances or other approved programs to make available access to the credit
available under the Cardholder’s credit limit. In the event of access to the credit limit by a
Cardholder by letter check or other authorized check or credit devices, a stop payment
order must be given in writing. Applicable Uniform Commercial Code procedures and
time periods shall apply to the effectiveness of the stop payment order.
(2) The line of credit on Educator’s Rewards Visa Platinum will be repaid as follows: either
the full amount billed shall be paid or, at my option, an installment equal to at least the
required minimum payment. If the outstanding balance of my Account is $10.00 or less,
it will be paid in full. You may pay the entire balance of your Account at any time
without penalty. The required minimum monthly payment on Educator’s Rewards Visa
Platinum shall be the greater of (i) $10.00 or (ii) 2% of that portion of the outstanding
balance which does not exceed my credit limit, plus the entire portion of the outstanding
balance in excess of my credit limit, plus any amount past due.
4. PERIODIC FINANCE CHARGE CALCULATION METHODS
The FINANCE CHARGE applicable to your Account for Cash Advances and Credit
Purchases of goods and services that you obtain through the use of your Card is calculated in
accordance with the following method.
Cash Advances: A FINANCE CHARGE will be imposed on Cash Advances from the date
made or from the first day of the billing cycle in which the Cash Advance is posted to your
Account, whichever is later, and will continue to accrue on the unpaid average daily balance of
such Cash Advances until the date of payment if paid during the same billing cycle, or until the
closing date of the billing cycle preceding the date on which the entire New Balance is paid in
full or until the date of payment if more than 25 days from the closing date. If the New Balance
shown on your monthly statement for the prior billing cycle is paid in full within 25 days from
the closing date of that statement, no FINANCE CHARGES will be imposed during the
current billing cycle for Cash Advances posted to your Account during previous billing cycles.
The FINANCE CHARGE for a billing cycle is computed by applying the Monthly Periodic
Rate to the average daily balance of Cash Advances, which is determined by dividing the sum
of the daily balances by the number of days in the billing cycle. Each daily balance of Cash
Advances is determined by new Cash Advances posted to your Account, and subtracting any
payments as received or credits as posted to your Account, but excluding any unpaid
FINANCE CHARGES. All balance transfers from other loans or accounts as permitted by
Issuer, in Issuer’s sole discretion, will be treated as Cash Advances for the purpose of all
FINANCE CHARGES.
Credit Purchases: A FINANCE CHARGE will be imposed on Credit Purchases only if you
elect not to pay the entire New Balance shown on your monthly statement for the previous
billing cycle within 25 days from closing date of that statement. If you elect not to pay the
entire New Balance shown on your previous monthly statement within that 25-day period, a
FINANCE CHARGE will be imposed on the unpaid average daily balance of such Credit
Purchases from the previous statement closing date and on new Credit Purchases from the date
of posting to your Account during the current billing cycle, and will continue to accrue until the
closing date of the billing cycle preceding the date on which the entire New Balance is paid in
full or until the date of payment if more than 25 days from the closing date.
The FINANCE CHARGE for a billing cycle is computed by applying the monthly Periodic
Rate to the average daily balance of Credit Purchases, which is determined by dividing the sum
of the daily balances during the billing cycle by the number of days in the cycle. Each daily

balance of Credit Purchases is determined by adding to the outstanding unpaid balance of Credit
Purchases at the beginning of the billing cycle any new Credit Purchases posted to your
Account, and subtracting any payments as received and credits as posted to your Account, but
excluding any unpaid FINANCE CHARGES.
5. FINANCE CHARGES
The Monthly Periodic Rate (“MPR”) and ANNUAL PERCENTAGE RATE (“APR”) are
variable rates that may change in January and July of each year. Issuer will determine the
Monthly Periodic Rate and the corresponding ANNUAL PERCENTAGE RATE as follows:
Issuer starts with an independent index (the “Index”), which is The Wall Street Journal Prime
Rate. When a range of rates had been published, the highest rate will be used. Issuer will use
an Index value available in the month immediately preceding the month of the annual
percentage rate adjustment as determined by Issuer in Issuer’s sole discretion. Issuer will
choose the date of any annual percentage rate adjustment in Issuer’s sole discretion; this date
may change from time to time. To determine the Monthly Periodic Rate that will apply to your
Account, Issuer adds a Margin to the value of the Index. Then Credit Union divides this sum by
the number of months in a year (12). To obtain the ANNUAL PERCENTAGE RATE, Issuer
will multiply the Monthly Periodic Rate by the number of months in a year (12). This result is
the ANNUAL PERCENTAGE RATE.
Your Monthly Periodic Rate, ANNUAL
PERCENTAGE RATE, Margin, minimum Monthly Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE and maximum Monthly Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE are based upon your Card type and your Tier. Your Tier is
based on upon certain creditworthiness factors which include, but are not limited to, payment
history and credit bureau data. Your Margin and your initial Monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE will be disclosed to you before or at the
time the Account and Card are issued in the Initial Rate Disclosure, which is included with this
Agreement and incorporated by reference. Subject to applicable laws and regulations, your
Margin may also be increased or decreased at any time in Credit Union’s sole discretion based
upon certain creditworthiness factors which include, but are not limited to, payment history and
credit bureau data. Any change in your Margin will cause a corresponding change in the
ANNUAL PERCENTAGE RATE and Monthly Periodic Rate.
The ANNUAL PERCENTAGE RATE can change each January and each July with changes
in the Index. All changes to the ANNUAL PERCENTAGE RATE will be effective on the
first day of the first billing cycle of January or July as applicable. There is no limit on the
amount by which the ANNUAL PERCENTAGE RATE can change during any period or the
term of the Account.
Your Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE will not be less than the Minimum Rate applicable to your Tier,
regardless of changes in the Index. The maximum ANNUAL PERCENTAGE RATE that can
apply is 18.00% or the maximum permitted by law, whichever is less.

The Card Types, Tiers and corresponding Margins and Minimum Rates are set forth below:
Card Type
Educator’s Rewards
Visa Platinum

Tier

Margin

A
B
C
D

5.74%
7.24%
11.74%
13.24%

Minimum Rates
8.99% APR/ 0.75% MPR
10.49% APR/ 0.87% MPR
14.99% APR/ 1.25% MPR
16.49% APR/ 1.37% MPR

Issuer may offer balance transfers from another loan to your Account from time to time. The
Monthly Periodic Rate and ANNUAL PERCENTAGE RATE for such balance transfers will
be disclosed to you before you make any such balance transfer.

06/21

6. Late Charges. If the minimum required payment on Educator’s Rewards Visa Platinum is not
received on the payment Due Date, a late charge of up to $25.00 shall be imposed.
7. Over Limit. In the event you incur charges in amounts which cause the Account balance to
exceed the authorized credit limit, you shall immediately pay Issuer the amount by which the
total balance exceeds such maximum authorized credit limit.
8. If a Cash Advance is obtained by the Cardholder at an Automated Teller Machine a $1.00
Charge shall be imposed. This cash advance charge is considered to be a FINANCE CHARGE
for Truth-in-Lending purposes and will be included in the total FINANCE CHARGE amount
disclosed on your current monthly billing statement.
9. The only FINANCE CHARGES assessed on your Account other than those assessed by a
periodic rate, will be transaction FINANCE CHARGES in connection with Cash Advances.
Transaction FINANCE CHARGES for each cash advance will be imposed on the date the
Cash Advance is posted to your Account. No grace period applies on any transaction
FINANCE CHARGE imposed arising from cash advances.
10.
Documentary stamp taxes as may be required by law shall be imposed on each
Cash Advance at the time the loan is made.
11.
I understand and agree that any copies of paperwork regarding my Account(s) that I
request will be charged to my Account(s) and shown on my statement(s) at a per page fee of
$3.00
12.
Any Cardholder whose Card(s) are lost or stolen will be assessed a $10.00 replacement
fee with Card delivery in 7-10 days. A special order with Card delivery in 48-72 hours will
be a $25.00 fee. An emergency Card replacement with Card delivery in 24 hours will be a
$150.00 fee.
13.
I agree to pay a return check charge of up to $25.00 for any check that is returned to
us unpaid.
14.
I understand that for any Temporary Credit Line Increase request, my Account(s) will
be charged $5.00.
15.
This Agreement may be amended from time to time by Issuer by written notice
mailed to Cardholder at Cardholder's last known address. Amendments will apply to new
purchases, cash advances, and other incurred charges, including FINANCE CHARGES,
after the date the change is effective. Amendments may also apply to existing purchases,
cash advances, and other incurred charges, including FINANCE CHARGES, except as
prohibited by applicable law.
16.
I acknowledge and agree that the Issuer may terminate this Agreement without notice
under the following conditions:
(a) Upon adverse re-evaluation of my creditworthiness.
(b) Upon my failure to satisfy the terms of this Agreement and the terms and conditions
established by the Issuer and by Visa.
(c) At my option or the Issuer's option if it has good cause.
(d) Upon any default under this Agreement, bankruptcy filed by you or other assignment for
the benefit of creditors. However, I understand and acknowledge that such termination
shall not affect my obligation to pay any outstanding balance.
17.
I understand that the Issuer is required to review my loan file from time to time,
and I hereby give my permission to and authorize the Issuer’s Loan Committee to investigate
and re-assess my creditworthiness at any time.
18.
I understand that a re-application by me and approval by the Issuer shall be required if:
(a) The Credit limit is increased; or
(b) The terms of payment are extended beyond the terms of the original Agreement
19.
I fully understand, acknowledge and agree that if my loans become delinquent or past
due or I am otherwise in default hereunder, my Card and Account shall be revoked in the
discretion of the Issuer.
20.
If your Account is terminated for any reason, or should you die or become
insolvent or apply for bankruptcy relief, or should you fail to comply with any of the terms and
conditions of this agreement, or should you default under any other loan or Account that you
may have with us, Issuer has the right to accelerate payment of all amounts you owe us under
your Account which you agree to pay to Issuer immediately, without further notice or demand
for payment.
21.
Cardholder agrees to pay all costs incurred by Issuer in collecting Cardholder's
indebtedness or in enforcing this agreement, including reasonable attorney's fees and also
those costs, expenses and attorney’s fees incurred in appellate, bankruptcy and post judgment
proceedings, except to the extent such costs, fees or expenses are prohibited by law.
22.
This Agreement and all credit advances are governed under the laws of the State of
Florida whether the credit transaction occurs within or outside the State of Florida. All litigation
arising hereunder shall occur in the court of competent jurisdiction in the Seventeenth Judicial
Circuit in Broward County, Florida.
23.
The invalidity or unenforceability of any provisions of this Agreement will not affect
the validity or unenforceability of any other provisions of this Agreement.
24.
All of the persons on my Account are jointly and individually bound by this
Agreement, regardless of who received the benefit of my Account or to whom any advance was
made under my Account. A default by any Account holder will be a default by all Account
holders.
25.
I agree to keep Issuer informed of any change in my mailing address and Issuer can
assume that I have received any notices or statements hereunder if mailed to my last address
appearing in our records.
26.
YOU GRANT US A SECURITY INTEREST IN ALL INDIVIDUAL AND
JOINT SHARE AND DEPOSIT ACCOUNTS YOU HAVE WITH US NOW AND
IN THE FUTURE TO SECURE WHAT YOU OWED UNDER THIS AGREEMENT.
WHEN YOU ARE IN DEFAULT, WE MAY APPLY THE BALANCE IN THESE
ACCOUNTS TO ANY AMOUNTS DUE.
SHARES AND DEPOSITS IN AN
INDIVIDUAL RETIREMENT ACCOUNT, AND ANY OTHER ACCOUNT THAT
WOULD LOSE SPECIAL TAX TREATMENT UNDER STATE OR FEDERAL
LAW, ARE NOT SUBJECT TO THIS SECURITY INTEREST. THIS SECURITY
INTEREST SHALL NOT APPLY TO THE EXTENT PROHIBITED BY ANY
APPLICABLE LAW OR REGULATION, INCLUDING, WITHOUT LIMITATION,
THE MILITARY LENDING ACT OR ITS IMPLEMENTING REGULATIONS.

27. If you have other loans from Issuer or take out other loans from Issuer in the future,
collateral securing those loans will also secure your obligations under this Agreement. However,
unless you expressly agree otherwise, your household goods and primary dwelling will not
secure your obligations under this Agreement even if Issuer has or later requires a security
interest in the household goods or a mortgage on the dwelling.
28. You hereby agree that your salary or earnings may be subject to attachment or garnishment
to the extent allowed under applicable law. You further waive, to the extent allowed under
applicable law, any exemption you might have from attachment or garnishment of your salary or
earnings.
29. Goods and services (“Credit Purchases”) may be purchased or leased by means of such Card
by Cardholder from any retail business establishment (“Seller”) who honors same upon the
execution of a sales slip evidencing such Credit Purchase and bearing the Account number of
the Cardholder embossed on the face of such Card or authorization for use thereof by
Cardholder Additionally, Cash Advances (“Loans”) may be obtained through use of such Card
(a) upon execution of a written request of Cardholder in a form furnished to him from any
participating financial institution, and (b) upon execution of a written separate agreement with
Issuer for an overdraft financing agreement, if offered by Issuer.
30. Each Card is the property of Issuer, is not transferable and must be surrendered upon
demand. It can be cancelled as well as repossessed by Issuer or its designee, and the privileges
thereof, revoked without prior notice.
31. Cardholder shall not use Card or permit the use of Related Cards to obtain Credit Purchases
or Loans which will increase Cardholders indebtedness to Issuer to an amount in excess of the
limit established by Issuer.
32. All Credit Purchases and Loans are affected at the option of the Seller and Cash Advancing
Bank, respectively, and Issuer shall not be responsible for refusal by a Seller or Cash
Advancing shall not be by cash but rather by a credit advice to Issuer which shall be shown as a
credit on Cardholder’s Account statement with Issuer.
33. Issuer will send to Cardholder, at monthly intervals determined by Issuer, a statement
reflecting for the prior monthly period all Card and Card Related transactions. Such statement
shall be deemed correct and accepted by Cardholder and all holders of Related Cards unless
Issuer is notified to the contrary in writing within 60 days of mailing of such statement.
34. When you use your Card at a merchant that settles in currency other than US dollars, the
charge will be converted into the US dollar amount. The currency conversion rate used to
determine the transaction amount in US dollars is either a rate selected by Visa from the range
of rates available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate Visa itself themselves receives, or the government-mandated
rate in effect for the applicable central processing date. The conversion rate in effect on the
processing date may differ from the rate in effect on the transaction date or posting date.
Visa USA charges us a 1% International Service Assessment on all transactions, regardless of
whether there is a currency conversion. We pass this international transaction fee on to you. An
international transaction is a transaction where the country of the merchant is outside the USA.
35. Payments made to Cardholder's Account will be applied in the following order: FINANCE
CHARGES: Fees; Minimum payment-cash advances; Minimum payment-credit purchases;
Balance-cash advances and Balance-credit purchases. If your Account has multiple ANNUAL
PERCENTAGE RATES for different portions of your Account balance, Issuer may apply
payments and credits in any manner permitted by law. Issuer may accept items marked
“Payment in Full” or with words of similar effect without losing any of Issuer's rights to collect
the full balance of Cardholder’s Account.
36. Cardholder may be liable for the unauthorized use of the Card or Related Cards as provided
in this paragraph. The Cardholder will not be liable for any unauthorized use that occurs after
Issuer is notified, orally or in writing at:
Credit Card Customer Service
PO Box 30495
Tampa, FL 33630

Telephone Number
1-800-299-9842

If Cardholder has a consumer Account or a business Account for which less than 10 Cards have
been Issued Cardholder's liability for unauthorized use of a Card will not exceed $50.00. If 10
or more Cards are issued for use by employees of a single business or other organization, there
is no limit to Cardholder’s liability for any unauthorized use that occurs before Cardholder
notifies Issuer as provided herein; the business organization may only impose liability on its
employees for unauthorized use of a Card as authorized by federal law and Regulation
37. Cardholder agrees that Issuer, its agents or service companies may monitor and/or record
any telephone communications with Cardholder.
38. Cardholder agrees that Issuer may release information to others, such as credit bureaus,
regarding the status and history of Cardholder's Account. However, Issuer is not obligated to
release any such information to anyone unless Issuer is required by law to do so.
39. Your Card or Account cannot be used in connection with any internet gambling
transactions. You agree that you will not use your Card for any transaction that is illegal under
any federal, state or local law.

06/21

YOUR BILLING RIGHTS
(Keep this Notice for Future Use)
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Credit Card Customer Service
PO Box 30495
Tampa, FL 33630
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us within 60 days after the error appeared on your statement and at least 3
business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong. You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential errors and you may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to charge
you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
• After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.

• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
• If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
Credit Card Customer Service
PO Box 30495
Tampa, FL 33630
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

06/21

Educator’s Rewards Visa Platinum
Interest Rates and Interest Charges

Annual Percentage Rate
(APR) for Purchases

0.00% Introductory APR on purchases for the ﬁrst 12 billing cycles of the account.

APR for Balance Transfers

2.49% Introductory APR on new accounts within 60 days of the approval, for the ﬁrst

After that, your APR will be 8.99% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate*.

12 billing cycles of the account.

After that, your APR will be 8.99% to 18.00%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate*.
APR for Cash Advances

8.99% to 18.00% based on your creditworthiness.
This APR will vary with the market based on the Prime Rate*.

Minimum Interest Charge

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We do not charge you
interest on purchases if you pay your entire balance by the due date each month. We will
begin charging interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerﬁnance.gov/learnmore.

For Credit Card Tips from
the Consumer Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees
Balance Transfer Fee
ATM Cash Advance Fee
Foreign Transaction Fee
Penalty Fees
Late Payment Fee
Returned Payment Fee

None
None
$1.00
1.00% of each transaction in U.S. dollars

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See your
account agreement for more details.
*The Prime Rate used to determine your APR is the highest rate published in the Wall Street Journal as selected by the Credit
Union in the calendar month preceding the month in which the APR changes. Your APR for purchases, balance transfers and cash
advances can change every January and July of each calendar year and is determined by adding a margin of 5.74% to 13.24%.
The above information is accurate as of the date in the lower right hand corner and is subject to change. For any change in this
information since it was printed contact:
BrightStar Credit Union P.O. Box 8966 Ft. Lauderdale, FL 33310-8966

06/21

